to the OIG.
              Office of Audits
              Office of Inspector General
              U.S. General Services Administration




              IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN

              Review of the GSA OCAO’s
              Procurement Management
              Review Process, Report Number
              A080121/O/A/F09012,
              Dated September 30, 2009
              Assignment Number A120154
              December 20, 2012




A120154
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration


 DATE:            December 20, 2012
 TO:              Kathleen M. Turco
                  Associate Administrator, Office of Governmentwide Policy (M)

 FROM:            Michelle Westrup
                  Audit Manager, Acquisition Programs Audit Office (JA-A)
 SUBJECT:         Implementation Review of Corrective Action Plan: Review of the GSA
                  OCAO’s Procurement Management Review Process, Report Number
                  A080121/O/A/F09012, dated September 30, 2009
                  Assignment Number A120154

We have completed an implementation review of the management actions taken in
response to the recommendations contained in our report entitled Review of the GSA
Office of the Chief Acquisition Officer’s (OCAO) Procurement Management Review
(PMR) Process (See Appendix A). Our objective was to determine whether the OCAO
had taken the corrective actions outlined in the Action Plan, dated March 1, 2010. To
accomplish our objective we:

1. Reviewed the original GSA Office of Inspector General’s report, recommendations,
   and approved action plan;
2. Reviewed documentation submitted by the OCAO’s PMR Division to the Office of
   Administrative Services’ GAO/IG Audit Response Division to resolve action plan
   items; and
3. Held discussions with PMR Division management and personnel.

The OCAO did not complete all the corrective actions outlined in the action plan;
however, the audit recommendations have been addressed and a revised corrective
action plan is not necessary. The Office of Acquisition Policy concurred with the results
of this report. Their written response can be found, in full, in Appendix C.

If you have any questions regarding this report, please contact me or the audit team at
the following:

  Michelle Westrup Audit Manager     michelle.westrup@gsaig.gov (816) 926-8605
  Jeremy Martin    Auditor-In-Charge jeremy.martin@gsaig.gov    (703) 603-0227

On behalf of the audit team, I would like to thank you and your staff for your assistance.


A120154                                  1
Background

On September 30, 2009, we issued a report, Review of the GSA OCAO’s Procurement
Management Review Process to the Office of Governmentwide Policy. The objective of
this audit was to determine whether PMRs effectively identify and communicate
compliance issues with federal acquisition laws and regulations in order to improve
contracting officer performance. This audit also determined whether OCAO had a
mechanism for measuring the effectiveness of PMRs.

The original audit found that OCAO’s PMR program had contributed to improving
compliance with federal acquisition laws, regulations, and internal procurement policy.
The PMR Division incorporated efficiencies, as well as changes in the acquisition
environment. The original audit identified opportunities to strengthen the effectiveness
of the PMR program by leveraging limited resources and implementing further process
improvements.

The PMR Division also developed the Outcome Analysis Tool to assist in evaluating
contracting activity performance. The original audit found opportunities to improve its
reliability, enhance its use as a performance measure, and for trend analysis.

To address the issues identified, the original report recommended that the Chief
Acquisition Officer:

1. Implement program improvements, including:
   a. utilizing a broad, risk-based approach across contracting activities and modifying
      the contract sampling process to obtain a higher level of assurance;
   b. enhancing communication and feedback to ensure wide dissemination of best
      practices;
   c. pursuing focused reviews when appropriate; and
   d. making improved use of the Internal Control and Audit Division Audit Tracking
      System (BATS) to track implementation of management action plans.

2. Continue efforts to improve the Outcome Analysis Tool and refine its usage to
   enhance quantification and trend analysis of PMR results by:
   a. assessing measures currently tracked to ensure they capture critical elements of
      acquisition;
   b. incorporating refinements to the PMR process and checklists to promote
      standardization of data capture; and
   c. supplementing with other performance indicators, or forms of evaluation, as
      appropriate.

3. Continue current Office of Management and Budget Circular A-123 implementation
   efforts, integrating where possible with our prior recommendations to leverage
   limited PMR resources.




A120154                                2
The Associate Administrator for the Office of Governmentwide Policy and the Chief
Acquisition Officer generally agreed with the report recommendations.

Results

Our implementation review determined that not all of the corrective actions have been
taken (See Appendix B for corrective action analysis matrix). However, our review
concluded that the audit recommendations have been addressed and a revised
corrective action plan is not necessary.

Corrective Actions Not Taken

In response to Recommendation 1.b., the PMR Division was to disseminate the results
of the 2010 Annual GSA A-123 Acquisition Assessment throughout the agency, via
email. PMR Division officials could not provide evidence that these results were
distributed, per the approved action plan. The GAO/IG Audit Response Division
proceeded to close this action step despite the lack of evidence; therefore, the PMR
Division provided no further documentation. When we requested a copy of the
dissemination email, PMR Division officials could not provide a copy due to GSA’s
transition to a new email system. Despite the failure to provide us with the email, the A-
123 report is posted on the PMR intranet site and is readily available to all GSA
employees. Therefore, we determined that the intent behind the action step was fulfilled
and, in conjunction with other provided documentation, the recommendation was
satisfied.

To address the same recommendation, the PMR Division stated it would post the PMR
review checklists on the PMR intranet site. However, PMR Division officials could not
provide any documentation to confirm this action was taken. During discussions with
PMR management, they informed us that the checklists were posted at one time, but
later taken down as they may have been negatively affecting contracting diligence.
Division officials wanted contracting personnel to focus on the overall quality of a
contract file instead of focusing on specific items on a predetermined checklist. Although
there was no evidence to support that the PMR checklists were posted on the intranet
site; we agreed with management’s rationale. We determined that the intent behind this
action step was fulfilled and, in conjunction with other provided documentation, the
recommendation was satisfied.

In response to Recommendation 2, the PMR Division was to provide the GAO/IG Audit
Response Division with quarterly application implementation updates on the
replacement of the Outcome Analysis Tool. On September 16, 2010, the sole quarterly
update was submitted. That day, the GAO/IG Audit Response Division closed this
action step. According to discussions with PMR management, the replacement data
application was not fully implemented until 2012 and is still awaiting final authorization
for use with OIG audits. Although quarterly updates were not provided as outlined in the
action plan, the data application is nearing full implementation; therefore, we determined




A120154                                 3
that the intent behind this action step was fulfilled and, in conjunction with other
provided documentation, the recommendation was satisfied.

While deficiencies in implementation of the corrective action plan were found, a revised
action plan is not required.

Management Comments

On behalf of the Office of Governmentwide Policy, the Director of Acquisition Policy and
Senior Procurement Executive concurred with the results of this review. Management’s
written comments to the draft report are included in their entirety as Appendix C.




A120154                                4
Appendix A – Action     Plan   for   Report   Number
A080121/O/A/F09012




A120154           A-1
Appendix A – Action     Plan   for   Report   Number
A080121/O/A/F09012




A120154           A-2
Appendix B – A080121/O/A/F09012 Corrective Action Matrix
                                                                                                              Not
Recommendation                                   Corrective Action                                   Taken   Taken
1.a.             For the FY 2010 PMR cycle, population data sets will be collected centrally
                 by CPMR rather than being provided by the PMR site. Also, the transition
                 from random to risk-based file selections will begin in FY 2010 with targeted
                 full implementation in FY2011. The plan is to focus on high-risk areas, such
                 as American Recovery and Reinvestment Act, noncompetitive, and non firm-             X
                 fixed-priced contracts greater than $100,000 in value. For the FY 2011 PMR
                 cycle, the goal is to select all samples based on risk factors that may evolve,
                 to include actions awarded during the last days of the fiscal year and
                 samplings from employees with above average number of awarded actions.
1.b.             For the FY 2010 PMR cycle, PMR noted Best Practices will be included in the
                 Annual GSA A-123 Report submitted to the Senior Assessment Team (SAT).
                 The A-123 report is disseminated throughout GSA. Also, the Office of
                                                                                                              X
                 Acquisition Policy (OAP) Center for Procurement Management Review will
                 post Best Practices and current CPMR review checklists on the GSA OCAO
                 Insite intranet site.
1.c.             CPMR will continue to provide ongoing focused reviews as needed or
                 requested. The Center will continue performing “focused” reviews in addition
                 to PMRs that are listed on the official PMR schedule, based on the following
                 criteria:

                 • Requests from Senior Leadership
                 • Results of past reviews (PMR, OIG and GAO)
                                                                                                      X
                 • GAO Studies and Legal Opinions on Federal Contracting (e.g., high risk
                   acquisition topics)
                 • Implementation of new or amended acquisition laws, regulations, policies,
                   etc.
                 • Complexity of acquisition process and/or programs
                 • New technology or information systems (increase electronic reviews)
                 • Volume of Transactions (number, dollars)
1.d.             CPMR management uses a PMR milestone matrix to manage PMRs and
                 track progress. In FY 2010, the matrix will be expanded to include BATS data         X
                 entry and tracking.
2.               Outcome Analysis tool is no longer being used by CPMR. However, the
                 envisioned functionality of the tool will be applied to a replacement data                   X
                 application should project funding request materialize.
2.a.             In FY 2009, CPMR captured measures of pre and post-award for critical
                 points in the acquisition cycle. In FY 2010 and beyond, similar data tracking
                 and roll-up will occur, which should result in our ability to perform trend          X
                 analysis. Also, starting in FY 2010, CPMR will work with key stakeholders to
                 validate that data being captured reflects the critical elements of acquisitions.
2.b.             In FY 2010, the base checklists for PBS, FAS-AAS, FAS-MAS will be cross-
                 referenced to ensure that similar critical data is being measured where              X
                 applicable.
2.c.             Develop and implement PMR Application to replace the Outcome Analysis
                 Tool. The application will be used to collect and store review findings in a
                 consistent automated manner. As a result, key performance indicators can be          X
                 analyzed in numerous ways to identify trends, systemic problems and best
                 practices within and across fiscal years.
3.               The OMB A-123 Assessment of the Acquisition function facilitates a
                 comprehensive review of acquisition activities at GSA. GSA achieved major
                 strides in FY 2009 and is excited to build on our success in FY 2010. This will      X
                 be an ongoing effort, and special consideration will be made to maximize
                 limited CPMR resources.
                                                                                            Total:     7       2




A120154                                         B-1
Appendix C – Management Comments




A120154               C-1
Appendix D – Report Distribution

Associate Administrator, Office of Governmentwide Policy (M)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, Office of Governmentwide Policy (M)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)




A120154                                D-1
